              The Office Audit Redesign Pilot Was Effective
               in Meeting Its Goals, but Its Implementation
                         Needs to Be Monitored

                                   January 2004

                       Reference Number: 2004-30-033




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                          January 14, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Office Audit Redesign Pilot Was
                              Effective in Meeting Its Goals, but Its Implementation Needs to
                              Be Monitored (Audit # 200330011)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       Office Audit (OA) Redesign Pilot. The overall objective of this review was to determine
       whether the Small Business/Self-Employed (SB/SE) Division was effective in meeting
       its goals during the OA Redesign Pilot. This review was part of our efforts to provide
       ongoing input during the SB/SE Division’s Examination Reengineering process.
       The SB/SE Division Examination function’s responsibility is to examine tax returns to
       determine the correct Federal tax liabilities. Within the Examination function, the OA
       function examines tax returns during face-to-face meetings with taxpayers in an IRS
       office. Between Fiscal Years 1997 and 2000, the Examination function experienced a
       64 percent decline in total assessed dollars and a 66 percent decline in closed cases.
       The SB/SE Division initiated an in-depth effort to reengineer its examination processes,
       products, and services to help address these declines. As part of these efforts, it
       conducted the OA Redesign Pilot, which tested new OA procedures to determine their
       effectiveness in increasing Examination productivity and reducing taxpayer burden.
       Based on the success of the Pilot and after final approval, the SB/SE Division plans to
       implement the new procedures nationwide to all OA groups.
       Overall, the OA Pilot was effective in testing the redesigned tools and procedures, and
       the results indicate that the new tools and procedures should be implemented
       nationwide. However, program results need to be monitored and manager reviews
       improved.
                                                         2


The Pilot realized three of five expected outcomes: increased first appointment
closures, increased employee satisfaction, and increased customer satisfaction. Our
review of a judgmental sample of 88 closed Pilot cases showed that 52 percent were
closed at first appointment, compared to 27 percent for 12 OA groups that did not
participate in the Pilot.1 Employee satisfaction surveys showed that satisfaction levels
for managers and clerical staff were mostly positive. Although the satisfaction results
for the Tax Compliance Officers (TCO), who conduct the examinations, were mixed, the
OA Pilot team management2 evaluated this feedback and is planning some revisions
that should have a positive impact. Based on 225 Customer Satisfaction Surveys,
91 percent of the Pilot group customers were satisfied, compared to 62 percent for the
non-Pilot group customers. In addition, other Examination program measures showed
positive trends such as increases in agreed cases, improved Examination quality, and
increased dollars assessed per return. The number of taxpayer postponements and
taxpayer no-shows was reduced, and Examination no-change rates were the same.
However, two expected outcomes were not met: decreased Examination time and
cycle time. Both Examination time and cycle time were greater for Pilot cases than
non-Pilot cases. In addition, the measure used for cycle time was not actually
representative of cycle time. The Pilot team management recognized these problems
and is planning certain revisions, which we believe should help.
Pilot participants were generally using the new tools and procedures, such as Planning
Sheets, Materiality Worksheets, Microsoft Outlook Calendars, Focused Information
Document Requests, and Call Back Letters; therefore, any conclusions reached by the
Pilot team on their effectiveness were appropriate. While most of these tools and
procedures improved the Examination process, Pilot team management is planning
revisions that should make the tools even more effective.
However, the managerial review process needs reevaluation. Managers were required
to review cases biweekly to allow them to assess consistency of planning, scheduling,
and Examination activities. Our review of 88 closed Pilot cases showed that biweekly
case reviews were documented in only 2 cases (2 percent). Although discussions with
group managers indicated they conducted biweekly case reviews, they also said they
did not document these reviews. The intent was for the review to be nonevaluative
during the Pilot. Pilot team management is planning some revisions to the managerial
reviews, including once-a-month open case reviews to discuss cases and potential
issues with the TCOs. However, these reviews still will not be required to be recorded.
We recommended that the Director, Compliance, SB/SE Division, conduct formal
follow-up evaluations of new tools and procedures designed to reduce Examination time
and cycle time and ensure that managerial reviews are properly documented.



1
  The Pilot selected 12 non-Pilot control groups, which were representative of a variety of geographic regions,
staffing profiles, and office types in the OA program nationwide, that were used for comparison purposes.
2
  The OA Pilot team management included the responsible executive, project manager, OA reengineering team
members, and Examination function general process analysts.
                                           3


Management’s Response: The Commissioner, SB/SE Division, agreed with our
recommendations. Compliance Policy Analysts will monitor the effectiveness of the
Reengineering roll-out and monitor key program results to ensure the new tools are
effectively implemented and used throughout the SB/SE Division’s Office Audit
program. In addition, language has been added to Office Audit managerial training
materials that provides Office Audit group managers with guidelines for conducting and
documenting open case reviews. Compliance Policy Analysts will also review open
case reviews during visitations conducted to evaluate the deployment of the Office Audit
Reengineering process changes to ensure they are documented as appropriate.
Management’s complete response to the draft report is included as Appendix V.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
               The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                         but Its Implementation Needs to Be Monitored




                                                 Table of Contents


Background ............................................................................................... Page 1
The Office Audit Redesign Pilot Was Mostly Successful ........................... Page 2
Two Measures Need to Be Closely Monitored as the New
Procedures Are Implemented .................................................................... Page 6
         Recommendation 1: ..................................................................... Page 10

Although the New Tools and Procedures Were Effective, the
Managerial Review Process Should Be Reevaluated................................ Page 10
         Recommendation 2: ..................................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Other Measurable Benefits From the Pilot ......................... Page 17
Appendix V – Management’s Response to the Draft Report ..................... Page 18
             The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                       but Its Implementation Needs to Be Monitored

                                    The Small Business/Self-Employed (SB/SE) Division
Background
                                    Examination function’s responsibility is to examine tax
                                    returns to determine the correct Federal tax liabilities.
                                    Within the Examination function, the Office Audit (OA)
                                    function examines tax returns during face-to-face meetings
                                    with taxpayers in an Internal Revenue Service (IRS) office.
                                    Between Fiscal Years 1997 and 2000, the Examination
                                    function experienced a 64 percent decline in total assessed
                                    dollars and a 66 percent decline in closed cases.
                                    The SB/SE Division initiated an in-depth effort to
                                    reengineer its Examination processes, products, and services
                                    to help address these declines. As part of this
                                    Reengineering effort, the SB/SE Division conducted the OA
                                    Redesign Pilot during which it tested new OA tools and
                                    procedures to determine their effectiveness in increasing
                                    Examination productivity and reducing taxpayer burden.
                                    These new tools and procedures included the following:
                                       •   Planning Sheets provided examination steps for the
                                           most frequently identified issues and helped provide
                                           for more consistent documentation.
                                       •   Materiality Worksheets provided guidance for
                                           determining the scope and initial depth of the
                                           examination.
                                       •   Microsoft Outlook Planning Calendars provided a
                                           way to schedule appointments and assisted in the
                                           ordering and assignment of cases.
                                       •   Focused Information Document Requests informed
                                           the taxpayers of specific documents to provide for
                                           the examination.
                                       •   Time Forecasts were used to estimate the time
                                           necessary to complete the initial interview and
                                           closing activities.
                                       •   Call Back Letters were used to contact the taxpayers
                                           to schedule the initial interview. The Letter informs
                                           the taxpayer of specific issues to be addressed during
                                           the examination and approximate time needed.




                                                                                             Page 1
              The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                        but Its Implementation Needs to Be Monitored

                                         •   Confirmation Letters provided written
                                             documentation of the appointment date, time, and
                                             contact information.
                                         •   Follow-up Telephone Calls provided a final
                                             reminder of the scheduled appointment.
                                     The SB/SE Division conducted the OA Pilot from
                                     September 2002 to March 2003 in nine OA Pilot groups.
                                     Tax Compliance Officers (TCO) started and closed
                                     approximately 650 tax examinations during the Pilot.
                                     The expected outcomes for the Pilot were increased first
                                     appointment closures, reduced time on cases, reduced cycle
                                     time, and increased employee and customer satisfaction.
                                     Other measurable potential benefits included increases in
                                     agreed cases and Examination quality, and reductions in
                                     taxpayer appointment postponements, taxpayer no-shows,
                                     and the number of examinations that result in no changes to
                                     the tax liability. After final approval, the SB/SE Division
                                     plans to implement the new procedures nationwide.
                                     This review was performed at the Santa Ana, California;
                                     Houston, Texas; and Boston, Massachusetts, SB/SE
                                     Division Territory Offices from March through
                                     September 2003. This audit was conducted in accordance
                                     with Government Auditing Standards. Detailed information
                                     on our audit objective, scope, and methodology is presented
                                     in Appendix I. Major contributors to the report are listed in
                                     Appendix II.
                                     Overall, the OA Pilot was effective in testing the redesigned
The Office Audit Redesign Pilot
                                     tools and procedures, and the results indicate that the new
Was Mostly Successful
                                     tools and procedures should be implemented nationwide.
                                     The Pilot had effective management oversight, three of five
                                     expected outcomes were realized, and other Examination
                                     program measures showed positive trends.
                                     Management oversight was effective
                                     The OA Pilot team management1 provided thorough
                                     oversight to the participants to help them use the new tools


                                     1
                                      The OA Pilot team management included the responsible executive,
                                     project manager, OA reengineering team members, and Examination
                                     function general process analysts.
                                                                                                 Page 2
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                       and is planning revisions to some of the tools to improve
                       their effectiveness. Sites and participants chosen for the
                       Pilot were typical and representative of the OA Program
                       overall. For example, the Pilot included groups from
                       metropolitan, suburban, and rural areas and groups with all
                       TCOs in the same location or in multiple locations.
                       Based on discussions with Examination function
                       management and statistical analysis of Audit Information
                       Management System (AIMS)2 reports, the cases selected for
                       the Pilot were typical and representative of overall
                       Examination cases worked by the OA program. In addition,
                       Pilot management provided adequate training on the new
                       tools and procedures to the Pilot participants.
                       Three of five expected outcomes were met, and other
                       measurable benefits showed positive trends
                       First appointment closures increased
                       A first appointment closure occurs when the TCO issues the
                       Examination results report to the taxpayer at the time of the
                       initial appointment or shortly thereafter with no subsequent
                       revisions. One of the Pilot’s expected outcomes was for the
                       TCOs to close more cases at their first appointments to
                       reduce taxpayer burden. Our review of a judgmental sample
                       of 88 closed Pilot cases showed that 46 cases (52 percent)
                       were closed at the first appointment. Compared to 12 OA
                       groups that did not participate in the Pilot,3 this was a
                       positive outcome since only 27 percent of their cases were
                       closed at the first appointment.
                       In addition, Pilot team management analyzed the total
                       number of cases closed by all the Pilot groups at the first
                       appointment during the Pilot period and identified similar
                       results. Fifty-two percent of all closed Pilot cases were
                       closed at the first appointment.




                       2
                         The AIMS is a computer system designed to give the Examination
                       function information about returns in inventory and closed.
                       3
                         The Pilot selected 12 non-Pilot control groups, which were
                       representative of a variety of geographic regions, staffing profiles, and
                       office types in the OA program nationwide, that were used for
                       comparison purposes.
                                                                                          Page 3
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                       Customer satisfaction improved
                       Customer satisfaction was measured using the SB/SE
                       Division Customer Satisfaction Surveys. During the Pilot,
                       the Pilot team collected Customer Satisfaction Survey
                       results from 225 customers, consisting of taxpayers and paid
                       professionals.
                       These results were then compared to approximately
                       4,900 Customer Satisfaction Surveys from non-Pilot groups
                       taken from the period July through September 2002.4 The
                       customer satisfaction results of the Pilot were good overall
                       when compared to the baseline results. Ninety-one percent
                       of the Pilot group customers were satisfied with their
                       examinations compared to 62 percent for the non-Pilot
                       group customers.
                       Employee satisfaction improved
                       Employee satistaction was measured using employee
                       surveys and focus group discussions conducted at the end of
                       the Pilot. Forty-nine TCOs, eight group managers, and nine
                       clerical staff participated in the surveys and focus group
                       sessions. Pilot participants were asked to compare their
                       satisfaction to the period prior to the Pilot by answering a
                       series of questions about the effectiveness of the new tools
                       and the efficiency of conducting the various phases of the
                       examination. In addition, there was one question that asked
                       employees if, overall, they were more satisfied with their
                       jobs.
                       As the chart below shows, the results from the overall
                       satisfaction question for managers and clerical staff were
                       mostly positive. The results for the TCOs were mixed.
                       While the TCOs thought some of the new tools were helpful
                       and enabled them to do a quality examination, some tools
                       did not work very well.




                       4
                        These were the most recent survey results available at the time of the
                       Pilot.
                                                                                        Page 4
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                                    Percentage of Employee Satisfaction Levels
                                           TCOs          Managers          Clerical
                        More Satisfied 37.5              62.5              55.6
                        Neutral            31.3          25.0              44.4
                        Less Satisfied     31.3          12.5              0
                        Total              100.1*        100               100
                       *Totals more than 100 due to rounding the category numbers.
                       Source: Post Pilot Surveys, March 2003.

                       Pilot team management evaluated participants’ comments
                       and is making recommendations that take into consideration
                       the feedback from employees. For example, 83 percent of
                       the TCOs stated that the process would be easier to use if
                       the tools and templates were better integrated into Report
                       Generation Software (RGS).5 Management recommended
                       improvements in overall usability and RGS integration
                       methods for tools and templates.
                       Other measurable benefits also improved
                       In addition to the expected outcomes, the Pilot anticipated
                       other potential benefits that included increases in agreed
                       cases and Examination quality and reductions in
                       appointment postponements, taxpayer no-shows, and
                       no-change rates.6 Also, we performed an analysis of dollars
                       assessed per return to determine if there was a positive
                       trend. Our analysis showed that all of these potential
                       benefits were either realized or the same when compared to
                       non-Pilot results, as follows:
                            •   No-change rates – virtually the same.
                            •   Agreed cases – higher percentage.
                            •   Postponements – lower percentage.
                            •   No-shows – lower percentage.
                            •   Case quality – better.
                            •   Dollars assessed per return – higher.


                       5
                         RGS is the software program required for generation of all income tax
                       examination reports.
                       6
                         The no-change rate is the number of examined returns having no
                       adjustments or no changes in tax liability compared to all examined
                       returns.

                                                                                       Page 5
             The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                       but Its Implementation Needs to Be Monitored

                                    For detailed results of the analysis and comparison sources,
                                    see Appendix IV.
                                    While we agree the new tools and procedures should be
                                    implemented nationwide, our review showed that time spent
                                    on examinations increased and the managerial review
                                    process should be reevaluated.
                                    Examination time is the direct time that the TCO charges to
Two Measures Need to Be Closely
                                    the examination of a tax return. This includes
Monitored as the New Procedures
                                    pre-examination planning, inspecting books and records,
Are Implemented
                                    resolving issues, and closing time. Cycle time is generally
                                    defined as the number of days between the first date the
                                    TCO charges time to the examination of a tax return and the
                                    closing date of the case.
                                    These measures are standard business measures used in the
                                    SB/SE Division Examination Program. Reducing both
                                    measures were expected outcomes of the Pilot; however,
                                    these goals were not met. In addition, the measure used for
                                    cycle time was not actually representative of cycle time.
                                    Examination time was greater for Pilot cases
                                    Our analysis of the number of hours charged to Pilot cases
                                    and to non-Pilot cases showed that Examination time was
                                    greater for Pilot cases. The Pilot team management’s
                                    analysis also identified this difference.




                                                                                          Page 6
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored



                                                              Examination Time

                                                                 11.1
                                           12      10.2
                                                9.2
                                           10




                           Average Hours
                                                                     7.7     Judgmental Pilot
                                           8            6.8
                                                                             Case Review
                                           6
                                                                             Pilot Cases AIMS,
                                           4                                 EQMS
                                           2                                 Non-Pilot Cases
                                           0                                 AIMS, EQMS

                                                TIGTA         Management




                       Sources: Examination closed data file (AIMS) October 1, 2002 –
                       March 31, 2003. Eighty-eight Pilot cases closed between January and
                       March 2003. Examination Quality Measurement System (EQMS)7
                       February 1, 2002 – March 31, 2003.
                       (TIGTA = Treasury Inspector General for Tax Administration)

                       As illustrated in the chart above, our review of 88 closed
                       Pilot cases showed that the average hours spent examining
                       tax returns was 9.2 hours. In addition, analysis of all closed
                       Pilot cases from the AIMS as of March 31, 2003, showed
                       the average hours spent was 10.2 hours. Therefore, the Pilot
                       procedures did not reduce time on cases when compared to
                       the average of 6.8 hours for the same period on non-Pilot
                       cases.
                       Although the Pilot team management analyzed different
                       data sources, they reached the same conclusion: the
                       Examination time was not reduced. Their comparison of the
                       EQMS results for Pilot cases as of March 31, 2003, showed
                       the average hours spent on cases was 11.1 hours. This was
                       compared to 7.7 hours from EQMS results for non-Pilot
                       cases from the prior 7-month period.8




                       7
                         The EQMS Program is the SB/SE Division’s process to measure
                       Examination quality and assess long-term trends of performance.
                       8
                         The Pilot used the 7-month period (February to August 2002) prior to
                       the Pilot for comparison purposes.
                                                                                                 Page 7
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                       Cycle time was longer for Pilot cases
                       Analysis of Pilot cases closed as of March 2003 compared
                       to non-Pilot cases started and closed over the same period
                       showed that cycle time on Pilot cases was longer than on
                       non-Pilot cases. The following graph shows Pilot and
                       non-Pilot average cycle days increased for each month of
                       the Pilot. These averages will continue to rise as older cases
                       are closed, but at some point in the future the cycle time
                       would stop increasing and level off to provide a more
                       reliable measure. As of March 31, 2003, the average Pilot
                       case cycle time was 121 days, compared to 80 days for
                       started and closed non-Pilot cases.
                                               Average Cycle Time


                          140
                          120
                          100
                           80                                                 Pilot
                           60                                                 Non-Pilot
                           40
                           20
                            0
                                Oct-   Nov- Dec-   Jan-   Feb- Mar-
                                 02     02   02     03     03   03


                       Source: AIMS - Examination closed data file (October 1, 2002 –
                       March 31, 2003).

                       The Pilot team management explained that 1 reason they did
                       not use the standard method to compute cycle time was
                       because all Pilot cases were reviewed by the EQMS before
                       closing, which took an additional 10 to 15 days longer to
                       close than the non-Pilot cases nationwide. Taking the
                       15 days into consideration, the cycle time of 106 days was
                       still higher than the non-Pilot cases, which was 80 days.
                       Instead of using cycle time, Pilot team management
                       measured the average age of the open case inventory for all
                       Pilot sites, including Pilot and non-Pilot cases.
                       Management reported that there was improvement in this
                       measure over the period of the Pilot. Their analysis showed
                       that average cycle days of in-process inventory (open cases)
                       decreased in Pilot groups as time went on. While this
                       analysis may have provided sufficient short-term
                                                                                        Page 8
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                       information, the traditional measure of cycle time needs to
                       be monitored as the new procedures are implemented and
                       results are analyzed. If cycle time is the desired
                       measurement, the time on cases should be measured from
                       start to closure so the results will not be misunderstood.
                       Potential reasons and effects for increased time
                       Increased Examination and cycle time could have several
                       causes:
                          •   New tools and procedures, such as Materiality
                              Worksheets, were complex and added time to the
                              pre-examination phase.
                          •   Problems integrating the new tools within the RGS
                              added time to the pre-examination phase.
                          •   TCOs were often unable to effectively manage their
                              work schedules because they did not have prior
                              experience with scheduling their own appointments
                              and managing their own inventories.
                          •   Lower than expected levels of managerial
                              involvement in the process caused many of the tools
                              to be used inappropriately.
                       Increasing Examination and cycle time could result in a
                       decline in the Examination program’s business results. For
                       example, although total dollars assessed increased, average
                       dollars assessed per hour was lower for closed Pilot cases
                       when compared to non-Pilot cases because Pilot
                       Examination time was higher. Analysis of closed Pilot
                       cases as of March 31, 2003, showed dollars assessed per
                       hour of $161 compared to $198 for non-Pilot started and
                       closed cases during the same period. For the same period
                       for the prior year, the average was $176.
                       Actions planned by Pilot team management
                       The Pilot team management recognized the problems that
                       potentially caused increased Examination and cycle time
                       and recommended the following revisions to new tools and
                       procedures before nationwide implementation:
                          •   Integrating the RGS with Pilot tools and procedures.


                                                                             Page 9
              The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                        but Its Implementation Needs to Be Monitored

                                        •   Simplifying the materiality evaluation process by
                                            replacing the Materiality Worksheet with a narrative
                                            checklist for risk assessment.
                                        •   Revising follow-up telephone call procedures by
                                            eliminating multiple calls to taxpayers and
                                            encouraging examination completion by the TCOs
                                            and clerks.
                                        •   Training the TCOs on management of work
                                            schedules.
                                        •   Establishing guidelines for the number of new starts
                                            per examiner.
                                     We agree that these revisions should help reduce
                                     Examination and cycle time.

                                     Recommendation

                                     The Director, Compliance, SB/SE Division, who is
                                     responsible for implementing policies for the Examination
                                     function, should:
                                     1. Conduct formal follow-up evaluations of the new tools
                                        and procedures to monitor their effectiveness in
                                        reducing Examination and cycle time on cases.
                                     Management’s Response: Compliance Policy Analysts will
                                     monitor the effectiveness of the Reengineering roll-out and
                                     monitor key program results to ensure the new tools are
                                     effectively implemented and used throughout the SB/SE
                                     Division’s Office Audit program. Key statistical indicators
                                     will be reviewed monthly. Compliance Area visitations will
                                     be conducted as necessary. The Program Manager, Exam
                                     General Processes, will advise the Director, Reporting
                                     Compliance, of the impact the new tools and procedures are
                                     having on Examination time and cycle time.
                                     Pilot participants were generally using the new Pilot tools
Although the New Tools and
                                     and procedures. Our review of 88 closed cases showed that
Procedures Were Effective, the
                                     in 79 cases (90 percent), the TCOs used all of the Pilot tools
Managerial Review Process
                                     and procedures while working the cases. In addition, a
Should Be Reevaluated
                                     review of Pilot progress reports, meeting notes, and closed
                                     case data showed the tools were being used. Therefore, any
                                     conclusions reached by the Pilot team on the effectiveness
                                     of the tools were appropriate.
                                                                                           Page 10
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                       Feedback from the employees showed that they thought
                       most of the tools improved the Examination process. As the
                       employees used the new tools, they identified some
                       problems in using them effectively, which were discussed
                       during focus groups and feedback sessions. Pilot team
                       management is planning revisions to improve some of the
                       processes. We reviewed these revisions and think they
                       should adequately address some of the difficulties
                       encountered.
                       For example, some of these problems involved the use of
                       the Microsoft Outlook Planning Calendar. Inconsistent
                       types and amount of data were input onto the Calendar and
                       duplication existed with other tools available to the TCOs.
                       Also, two of three group managers interviewed stated they
                       did not use the Microsoft Outlook Planning Calendars for
                       the ordering of cases or the assignment of cases because of
                       duplication of information already available. The revisions
                       planned by SB/SE Division management will eliminate the
                       need to maintain duplicate paper calendars and provide
                       training for scheduling and using Microsoft Outlook for
                       managing inventory.
                       Another example is the Materiality Worksheet, which the
                       TCOs identified as not very useful. The revisions planned
                       will replace the materiality scoring with a narrative checklist
                       to substantiate the risk level of an issue. Although tools
                       were being effectively used, the management review
                       process could be improved.
                       Managerial reviews need to be improved
                       Managers were required to review cases biweekly to assess
                       the consistency of planning, scheduling, and Examination
                       activities. One of the goals of the Examination
                       Reengineering program was for managerial involvement to
                       be up-front, early in the Examination process.
                       IRS procedures state that nonevaluative reviews do not
                       contain a written rating; however, some documentation is
                       appropriate to establish that it actually occurred. Employees
                       need to see feedback instructions for completing the
                       examinations, and managers need to have a way to follow
                       up on their suggestions. In addition, one of the General
                       Accounting Office’s Standards for Internal Control in the

                                                                              Page 11
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
          but Its Implementation Needs to Be Monitored

                       Federal Government states that internal control, such as
                       managerial review, needs to be clearly documented, and the
                       documentation should be readily available for examination.
                       Our review of 88 closed Pilot cases showed the biweekly
                       reviews were documented in the case files in only 2 cases
                       (2 percent). Three group managers interviewed stated they
                       conducted biweekly case reviews. However, they did not
                       document these reviews because the intent was for the
                       review to be nonevaluative during the Pilot. Pilot team
                       management observed that some managers of other Pilot
                       groups used a separate checklist to document biweekly
                       reviews, although it was not required. Without proper
                       documentation of managerial reviews where case guidance
                       is provided, it is difficult to assess the impact that such
                       reviews have on case development.
                       Pilot team management is planning some revisions to the
                       managerial reviews. These reviews include once-a-month
                       open case reviews to discuss cases and potential issues with
                       the TCOs, in addition to biweekly analysis of inventory
                       status and scheduling casework. However, the reviews still
                       will not be required to be recorded.

                       Recommendation

                       The Director, Compliance, SB/SE Division, should:
                       2. Ensure that monthly open case reviews where case
                          guidance is provided are documented in the case activity
                          record. Open cases selected should include cases in
                          various Examination phases.
                       Management’s Response: Language has been added to
                       Office Audit managerial training materials that provides
                       Office Audit group managers with guidelines for conducting
                       and documenting open case reviews. Compliance Policy
                       Analysts will also review open case reviews during
                       visitations conducted to evaluate the deployment of the
                       Office Audit Reengineering process changes to ensure they
                       are documented as appropriate.




                                                                            Page 12
              The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                       but Its Implementation Needs to Be Monitored

                                                                                                  Appendix I

                          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the Small Business/Self-Employed (SB/SE)
Division was effective in meeting its goals during the Office Audit (OA) Redesign Pilot.
Specifically, we:
    I. Determined how effectively the OA Pilot participants used the new procedures.
        A. Determined the status and effectiveness of the various new techniques and tools.
             1. Reviewed the Pilot’s final recommendations report for an overview of whether
                the new tools were used and how they were measured.
             2. Obtained managers’ and employees’ opinions on the new procedures by analyzing
                the results from the employee focus group and feedback sessions.
             3. Determined if the use of Microsoft Outlook Planning Calendars for ordering
                returns and scheduling appointments improved inventory management.
             4. Reviewed a judgmental sample1 of 88 cases closed between January and
                March 2003 from 3 Pilot sites visited (we were advised they were representative
                of the overall Pilot) to discuss issues and perform the following tests:
                 a. Reviewed the Call Back Letters and the Tax Compliance Officers’ (TCO)
                    activity records to determine whether the Letters were effective.
                 b. Determined if Focused Information Data Requests caused taxpayers to bring
                    in all the necessary documents and whether cases were closed on first
                    appointments.
                 c. Determined if Planning Forecasts were useful to the TCOs and managers in
                    scheduling work and for time management.
                 d. Determined if the Materiality Worksheet and the Audit Planning Sheets were
                    used and if biweekly managerial reviews were performed.
        B. Determined if cases selected by Pilot sites were representative of overall Examination
           cases worked by the OA.
             1. Compared the Audit Information Management System (AIMS) activity and
                source codes2 for Pilot cases closed as of March 31, 2003, with cases at the same


1
  We used judgmental sampling because Pilot cases were still being closed as we conducted audit work, so we could
not define the population.
2
  The AIMS is a computer system designed to give the Examination function information about returns in inventory
and closed. AIMS activity and source codes represent the type of return and specific program being examined.
                                                                                                        Page 13
              The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                       but Its Implementation Needs to Be Monitored

                 sites closed between October 1, 2001, and March 31, 2002, and cases from
                 non-Pilot sites closed between October 1, 2002, and March 31, 2003.
            2. Determined the reliability of AIMS data analyzed by comparing it to an
               Examination function statistical report of closed cases, called Table 37, and
               validating certain data fields.
            3. Discussed with group managers the types of cases requested for the Pilot and the
               process for requesting returns.
        C. Determined if participants in the Pilot sites were representative of most TCOs overall
           by discussing how the sites were selected and comparing the grade levels of the
           49 Pilot participants with non-participating TCOs.
        D. Determined the adequacy of the training provided to Pilot participants.
        E. Conducted an independent analysis of the Pilot case data from the AIMS and the
           Examination Quality Measurement System (EQMS)3 as follows:
            1. Analyzed AIMS Pilot data on closed cases as of June 30, 2003, to determine the
               number of closed cases, average hours worked per case, average cycle time,
               average dollars assessed per return, average dollars assessed per hour, and types
               of closings. We compared these data to non-Pilot cases closed between
               October 1, 2001, and June 30, 2002 (started after September 2001), and closed
               between October 1, 2002, and June 30, 2003 (started after September 2002).
            2. Analyzed EQMS data for the Pilot’s closed cases and compared the prior year’s
               EQMS data from September 1, 2001, to March 31, 2002, to the current period’s
               data from September 1, 2002, to March 31, 2003.
    II. Determined if management had adequate plans for measuring the Pilot results.
        A. Determined if there were adequate oversight controls over the Pilot.
        B. Analyzed the tools and data used to measure the results to determine if they
           adequately informed SB/SE Division management whether goals were being
           achieved.
        C. Determined if the method for measuring employee satisfaction was sufficient.
        D. Determined if the method for measuring customer satisfaction was sufficient and
           analyzed results.



3
  The EQMS Program is the SB/SE Division’s process to measure Examination quality and assess long-term trends
in performance.



                                                                                                      Page 14
            The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                     but Its Implementation Needs to Be Monitored

                                                                                  Appendix II


                           Major Contributors to This Report

Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Parker F. Pearson, Director
Lynn Wofchuck, Audit Manager
Richard T. Hayes, Senior Auditor
Julian E. O’Neal, Senior Auditor
Phyllis E. Heald, Auditor




                                                                                       Page 15
           The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                    but Its Implementation Needs to Be Monitored

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 16
              The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
                       but Its Implementation Needs to Be Monitored

                                                                                                Appendix IV


                              Other Measurable Benefits From the Pilot

                     Treasury Inspector General for Tax Administration Analysis
                                         Pilot Results Sources           Comparative Results Sources

                               Judgmental review AIMS1 Pilot EQMS2 Pilot AIMS Non-Pilot EQMS National

         No-Change Rates             36.4%         36.5%                    36.1%

         Agreed Cases                63.6%         60.5%                    59.5%

         Postponements               14.7%                       23%                        28.3%

         No Shows                                                7.6%                        13%
                      3
         EQMS Quality                                            77.9%                      70.1%

         Dollars per Return                        $1,653                   $1,341

         Sources: Judgmental review – Review of a judgmental sample of 88 closed Pilot cases.
                  AIMS Pilot – Analysis of 655 closed Pilot cases as of March 31, 2003, from the AIMS database.
                  EQMS Pilot – Pilot EQMS results obtained from Pilot team management.
                  AIMS Non-Pilot – Analysis of 14,845 closed non-Pilot cases started by September 1, 2002, and
                  closed between October 1, 2002, and March 31, 2003.
                  EQMS National – Analysis of all EQMS results from September 1, 2001 – March 31, 2002,
                  from the EQMS database.




1
  The Audit Information Management System (AIMS) is a computer system designed to give the Examination
function information about returns in inventory and closed.
2
  The Examination Quality Management System (EQMS) Program is the Small Business/Self-Employed Division’s
process to measure Examination quality and assess long-term trends of performance.
3
  The EQMS Quality figures refer to the percentage of quality standards met (for both charts).
                                                                                                        Page 17
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
         but Its Implementation Needs to Be Monitored

                                                                 Appendix V


        Management’s Response to the Draft Report




                                                                      Page 18
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
         but Its Implementation Needs to Be Monitored




                                                                      Page 19
The Office Audit Redesign Pilot Was Effective in Meeting Its Goals,
         but Its Implementation Needs to Be Monitored




                                                                      Page 20
